V

No.

In the Supreme Court of the United States
Thomas Taffe and Devony Lehner,
Petitioners,
v.

FILED
JAN 2 7 2020

First National Bank of Alaska
Respondent

OFFICE OF THE CLERK
SUPREME COURT uT

On Petition for a Writ of Certiorari
to the Supreme Court, State ofAlaska

PETITION FOR WRIT OF CERTIORARI

Thomas Taffe and Devony Lehner, pro se
P.O. Box 356, Homer, Alaska 99603
Telephone: 907-299-4737
E-Mail: ttaffe22@gmail.com

RECEIVED
APR -8 2020
MpmEmeFcMrtLu^k

c

1

I.

1.

QUESTIONS PRESENTED

Did a systemic bias against pro se

litigants lead to the unconstitutional denial of
Petitioners' right to a jury trial in this case?
(a)

Did the summary judgment granted by

the Alaska Superior Court recklessly violate state
and federal legal standards?
(b)

Did the Alaska Supreme Court fail to

address the serious mistakes made by the Superior
Court?

11

II.

TABLE OF CONTENTS

I.

Questions Presented

1

II.

Table of Contents.....

n

III.

Table of Authorities.,

in

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below...................................

1

VI.

Jurisdiction.........................................

2

VII.

Constitutional Provisions Involved

2

VIII. Statement of the Case

3

IX.

Reasons for Granting Writ.......................

9

X.

Conclusion....................................................

20

XI.

Certificates of Word Count and Service......... 21

XII.

Appendix
(A) Order on Motion for Summary Judgment
Superior Court at Homer (07-12-2016)...App.l
(B) Motion for Summary Judgment Superior
Court at Homer (09/13/2017)

App.16

(C) Opinion Supreme Court of the State of
Alaska (09/27/2019)

App.33

(D) Petition for Rehearing Supreme Court of
the State of Alaska (10/29/2019)..............App.55

Ill

III.

TABLE OF AUTHORITIES

Cases
Christensen v Alaska Sales and Service. Inc.
335 P.3d 514 (Alaska 2014)

9

Reasner v State of Alaska.
394 P.3d 610 (Alaska 2017)

7

Reeves v Sanderson Plumbing.
530 U.S. 133 (2000).................

11

Statutes
28U.S.C § 1257

2

Constitutional Provisions
US Const. Amendment VII — Civil Trials

2

US Const. Amendment XIV — Citizen Rights

2

1
IV.

Petition for Writ of Certiorari

Thomas Taffe and Devony Lehner respectfully
petition this Court for a writ of certiorari to review
the summary judgment granted by the Superior
Court of Kenai, Alaska in 2017 and the subsequent
denial of relief on appeal by the Supreme Court of
Alaska, Appellate Division in 2019.
V.
(A)

Opinions Below

Order on Motion for Summary Judgment
(Adhesion, Ambiguity and Fraud) Superior
Court of Kenai Alaska (July 12, 2016).

(B)

Motion for Summary Judgment (Limitations)
Superior Court, Superior Court of Kenai
Alaska (09/13/2017).

(C)

Opinion (Denied Appeal) Alaska Supreme
Court, Appellate Division (09/27/2019).

(D)

Petition for Rehearing Alaska Supreme Court,
Appellate Division (10/29/2019).

2
VI.

Jurisdiction

Petitioners request for a rehearing was denied
on October 29, 2019. Taffe and Lehner invoke this
Court's jurisdiction under 28 U.S.C. § 1257, having
timely filed (by USPS) this petition for a write of
certiorari within ninety days of the Alaska Supreme
Court's refusal to grant a rehearing.
VII.

Federal Constitutional Provisions Involved
United States Constitution Amendment VII:

In suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise reexamined in any Court of
the United States, than according to the rules of the
common law.”
United States Constitution Amendment XIV:
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.

3

VIII. Statement of the Case
The right to a jury trial in civil cases is
enshrined in both the United States Constitution
(Amendment VII) and the Alaska Constitution
(Article 1, §16). Similarly, the right to due process is
found in United States Constitution Amendment XIV
and the Alaska Constitution (Article 1, §7).
Alaska courts, like those in many other states,
frequently have difficult interactions with pro se
litigants. This often results in a negative bias—
deserved or not. Typically, self-represented litigants
are associated with wasting time and resources.
Nevertheless, those who represent themselves
in a civil suit are constitutionally guaranteed equal
protection under the law and a jury trial. This
particular case is a test of the efficacy of those
promises. These Petitioners are before this Court
because they have been unfairly denied those rights.
Alaska Superior Court
During the four years of litigation in Superior
Court, Petitioners (Plaintiffs) were continually under

4
attack with respect to due process, particularly their
right to a jury trial. Indeed, at the first hearing in
the case, on June 2, 2014, the lower court argued
they were not entitled to a jury. Even after
acknowledging they had filed the demand the lower
court implied that there was no guarantee unless the
court gave them a favorable ruling.
On October 28, 2014, the lower court
announced it would delay ruling on the jury demand
(filed for a second time with an amended complaint
on September 3rd) until after Defendant's two
motions for summary judgment were decided [R.
1728]. On December 2, 2014, the Plaintiffs made the
demand for a for a third time as part of their 3rd
amended complaint. [R. 0126-27]
Eighteen months later, at a hearing on April
27, 2016, four months before finally ruling on the two
summary motions, the magistrate asked Petitioners
if they had requested a jury trial, apparently hoping
they would admit to abandoning their rights.
Petitioners responded that they had filed a jury trial
demand three times. [Trns. p.117, 3-4].
It took a total of twenty-two months for the

5
lower court to grant summary judgment on
contractual ambiguity and deny summary judgment
on fraud. These decisions were made on July 16,
2016 (R. 1777-1785). However, in its ruling court did
not address the jury trial issue. However, on January
27, 2017, shortly after First National filed a new
motion for summary judgment based on limitations
(R. 1597-98] the magistrate again tried to prevent the
Petitioners from asserting their rights.
On February 2, 2017, six months after the
summary judgments on ambiguity and fraud had
been decided, the Superior Court told Petitioners
that weren't going to have a jury trial because they
“didn't make a request for a jury trial in a timely
fashion” [Trns. 177, 21-25; 178, 1-8].
Petitioners responded that they were “certain”
they had timely filed. They reminded the magistrate
she had raised the question several times and that
their claim had been repeatedly confirmed.
Even though the magistrate was “pretty sure”
a request had not been made she agreed to “double
check,” claiming (incorrectly) that the demand was
not listed in Courtview. She indicated: “what I'm

6
going to have to do is dig back, because it makes a
difference when we're going to set this for trial,
whether I'm setting for court trial or jury trial” [Trns.
218, 18-25]. She also indicated [Trns. 219, 2-4]: “My
recollection when I looked at it a long time ago
was...it wasn't filed timely.”
The court clerk, who had been tasked with
checking the record, later acknowledged in writing
that the Petitioners' demand had been timely filed.
But the lower court had also argued that a jury trial
required too much time and effort.
At the February 2, 2017, hearing the
magistrate complained about the prospect of a jury
trial in Homer, Alaska (where the case had been
filed) and indicated: “...maybe I'll even have a chance
to dig through all this and make a ruling...I need to
resolve the issue of jury or judge.” [Trns. p. 219, 2125 to p. 220, 1]
About seven weeks later, on March 21, 2017,
after discussing summary judgment and a motion in
limine also filed by First National. [Trns. p. 223, 2122] the magistrate indicated: “I don't really have to
get to the motion in limine if I grant the motion for

7
summary judgment because the motion for summary
judgment on statute of limitations has time-barred
the whole case” [Trns. p. 224, 1-7].
In response, partly because they felt the Court
was pre-judging the limitations issue without
reviewing the factual record, Petitioners asked for an
evidentiary hearing [Trns. p. 225, 1-6].
The lower court magistrate then claimed:
“Motion for summary judgment doesn't usually...give
rise to an evidentiary hearing” and asked opposing
counsel for advice [Trns. p. 226, 25 to p. 227, 14]. She
concluded “I'm not going to have an evidentiary
hearing...because that's not what we do here.” [Trns.
p. 229, 4-5]
And yet, at the next status hearing, on June 7,
2017, the Superior Court magistrate advised the
parties that Reasner v State of Alaska. 394 P.3d 610
(Alaska, 2017), decided a few weeks earlier, required
her to hold an evidentiary hearing before deciding a
summary judgment motion. Later, the Petitioners
would argue to the lower court that it had
misconstrued Reasner and deprived them of their
due process and jury trial rights (to no avail).

8
There is no question that the issue was
presented and that the lower court sought to prevent
a jury trial from happening. Unfortunately, the State
Supreme Court also acted unfairly and ignored the
ill-conceived rulings and erratic reasoning of the
lower court magistrate.
Alaska Supreme Court
The jury trial and due process issues were
presented to the state supreme court several times.
In their initial appeal to the Alaska Supreme Court, on
p. 3, section VI, Petitioners argued the lower court
“affirmatively acted to deny their constitutional right to
a jury trial and their right to due process.”
On p. 27, section VI, entitled “Constitutional
and Due Process Rights Violated,” Petitioners stated
argued that the lower court “wrongfully denied” their
“constitutional right to a jury trial and their right to
due process.”
On p. 7 of the state Supreme Court's September
27, 2019, opinion it stated “Taffe and Lehner also
contend that at the evidentiary hearing the superior

9
court violated their constitutional due process rights”
and denied “their right to a jury trial.” The Court
asserted that “...Taffe and Lehner offer no specific facts
to suggest that the hearing’s length violated their due
process rights, and their other arguments stand in
direct opposition to our case law.”
The “other arguments” included many specific
facts that showed the hearing had violated their due
process rights and the hearing's length was one of many
choices made by the lower court that strongly suggest
an underlying bias.
The lower rulings in this case are so filled with
errors, so unreasonable and inaccurate with respect to
the facts and the law, that they cannot be explained as
mere mistake. Instead, they are much more likely to be
the product of systemic bias. Turning a blind eye at the
Supreme Court level is even more inexplicable.
IX.

REASONS FOR GRANTING THE WRIT
A brief review of the legal mistakes made by

the Superior Court are outlined below, followed by an
analysis of the state Supreme Court's failure to
supervise and correct the lower court. Petitioners

10
humbly request that this Court grant a writ of
certiorari so that they can fully demonstrate the
extent of the failures and the threat these practices
pose to the larger judicial system.
The Superior Court Denied Petitioners Due Process
Discovery Rule Errors
In this case the Superior Court mistakenly
granted summary judgment loosely based on one
element of the discovery rule (inquiry notice) without
determining: (1) when actual injury from fraud first
occurred; (2) when that was discoverable; (3) whether a
reasonable inquiry was made, and if so, (4) whether it was
productive or unproductive; (5) whether an unproductive
inquiry was made that was utterly unreasonable, and (6) if
so, whether all the elements of the cause of action could
have reasonably been discovered during the term of the
statute of limitations. The movant, First National, did not
address any of these aspects of the discovery rule.
Summary Judgment Standards
The lower court also misconstrued the
standards for granting summary judgment in that it:
(1) chose not to base its judgment on incontrovertible

11
facts; (2) did not construe the factual inferences in
favor of the non-moving party; (3) did not distinguish
between evidentiary and judicial admissions; (4) did
not require the movant to meet its burden of proof.
The lower court magistrate improperly
redefined herself as a trial judge in the first few
minutes of the July 18, 2017 evidentiary hearing (Tr.
Page 248, 9-20) saying: “...when it's...a combined
legal and factual issue of which there may be a
dispute it's best for the Court to have an evidentiary
hearing, evaluate the credibility of the witnesses and
evaluate the evidence, the same as the Court would
do at a trial...”
In contrast the United States Supreme Court
stated in Reeves v. Sanderson. 530 U.S. 133, at ISO51 (2000) that “the court must draw all reasonable
inferences in favor of the nonmoving party and it
may not make credibility determinations, or weigh
the evidence. 'Credibility determinations, the
weighing of the evidence, and the drawing of
legitimate inferences from the facts are jury
functions, not those of a judge.' Liberty Lobby,
supra, at 255.”

12
The Reeves opinion added: “Thus, although
the court should review the record as a whole, it
must disregard all evidence favorable to the moving
party that the jury is not required to believe...That
is, the court should give credence to the evidence
favoring the nonmovant as well as that 'evidence
supporting the moving party that is uncontradicted
and unimpeached, at least to the extent that that
evidence comes from disinterested witnesses. I

”

The standard under Alaska common law,
although somewhat more lenient to the non-movant
in certain respects, is very similar. See, for example,
Christensen v Alaska Sales and Service. Inc. 335
P.3d 514 (Alaska 2014): “Alaska's summary judgment
standard does not allow trial courts, on the limited
evidence presented at the summary judgment stage,
to make trial-like credibility determinations, conduct
trial-like evidence weighing, or decide whether a non­
moving party has proved its case.”
An important material issue, one on which this
case turns, was the actual date of accrual. Here the
movant did not prove when accrual actually occurred.
It presented only the disputed inference that

13
Petitioners should have made an inquiry into the
possibility of fraud. An inference does not satisfy the
legal standard.
Furthermore, Petitioners provided substantial
evidence under oath that they made a series of
inquiries but did not find evidence of actual harm or
fraudulent intent until 2012-2013. The movant did
not provide any credible evidence contradicting
Petitioners' description of their inquiries.
The failure of the movant to establish the date
of accrual with anything more than an inference, in
and of itself, shows that there was no legal basis for
granting summary judgment based on limitations.
Unfortunately, the Alaska Supreme Court failed to
correct the lower court's errors and added others.
The Alaska Supreme Court
The Alaska Supreme Court exacerbated the
injustice of the lower court by basing its opinion on a
lengthy sequence of inaccurate factual claims, faulty
inferences, and incomplete reasoning.
For example, on page 4, the state Supreme

14
Court represented that: “In July 2015, after Taffe
and Lehner apparently abandoned their claim to set
aside the foreclosure, the superior court dismissed
Taffe and Lehner’s requests for declaratory relief
regarding the foreclosure and ruled that their
remedies were limited to damages.”
There is nothing in the record of this case
showing the Superior Court dismissed the
Petitioners' request for declaratory relief in July
2015. Furthermore, the basis for that relief did not
depend solely on setting aside the foreclosure.
The state Supreme Court represented that: “In
July 2016 the court granted First National summary
judgment on most of Taffe and Lehner’s remaining
claims.” There is no record showing the superior
court granted summary judgment on Petitioners'
“remaining claims” in July 2016.
The Alaska Supreme Court also represented
that: “The court denied summary judgment on the
contractual ambiguity claim, ruling that there was a
genuine dispute whether the deed of trust was fully
integrated, and on the fraud claim that First
National misrepresented the terms of the 2008 deed

15
of trust.” The lower court actually granted summary
judgment on the contract ambiguity claim and
denied summary judgment with respect to fraud.
On page 6, pp. 1 the Supreme Court stated
that: “The court specifically found that by early 2009,
Taffe and Lehner should have realized that First
National 'had a different view' of the agreement; they
had questioned First National why a new deed of
trust had not been issued.”
Having “a different view” of an agreement is
not evidence of fraudulent misrepresentation, which
requires malicious intent and other elements.
The Supreme Court also stated on page 6 that:
“The court discounted as unreasonable Taffe and
Lehner’s arguments that they had no reason to
believe First National did not intend to reduce its
collateral. The court found that Taffe and Lehner
“had all the information they needed to move forward
with the [fraud] claim . . . [by] February 1, 2010 . . .”
The lower court did not cite actual evidence or
provide reasoning showing Petitioners “had all the
information they needed to move forward with the
[fraud] claim...[by] February 1, 2010.”

16
Both the Respondent and the lower court
improperly relied on the inference that the use of a
Change in Terms document (rather than a new Deed
of Trust) required Petitioners to file an action based
on fraud. The Petitioners did inquire but did not
initially see evidence of the crucial elements of fraud.
At page 7, pp. 1, the Supreme Court claimed
that: “Taffe and Lehner argue that the superior court
legally erred by resolving at a pretrial evidentiary
hearing the disputed facts about when the statute of
limitations for their claims began to run. But we
have stated on numerous occasions that superior
courts should hold pretrial evidentiary hearings to
resolve whether a statute of limitations has run.”
Taffe and Lehner did not argue that the lower
court was prohibited from holding evidentiary
hearings at which contested factual claims could be
decided by incontrovertible evdience. They argued
that the court could not resolve material factual
disagreements and grant summary judgment by
making credibility determinations and drawing
inferences that tended to favor the movant.
The Supreme Court stated that: “Taffe and

17
Lehner also contend that at the evidentiary hearing
the superior court violated their constitutional due
process rights by limiting the proceeding’s length,
assuming the role of fact finder, not determining
incontrovertible facts, restricting the hearing to the
statutes of limitations, and denying their right to a
jury trial. But Taffe and Lehner offer no specific facts
to suggest that the hearing’s length violated their
due process rights, and their other arguments stand
in direct opposition to our case law.”
The Petitioners did not make their argument
about the hearing’s length in a vacuum. The state
Supreme Court provided no basis for concluding that
’’their other arguments stand in direct opposition to
our case law.”
On Page 11 the state Supreme Court also
stated: “Finally, as the court found, in February 2010
Taffe and Lehner were forced, under protest, to
negotiate a loan extension and change of terms
agreement including leaving the unsubdivided tracts
covered by the deed of trust. The February 2010
agreement meant that Taffe and Lehner’s title to the
unsubdivided tracts remained clouded and they

18
would be forced to negotiate any future tract sales
with First National. This is an appreciable injury.”
The state Supreme Court was entirely
incorrect when it claimed that Petitioners were
“forced” to “leave the unsubdivided tracts” covered by
“the deed of trust” in 2010. There were no
“unsubdivided tracts.” Unsubdivided tracts were and
are prohibited by the applicable ordinances of the
City of Homer, Alaska, where the project was located.
On Page 11 the state Supreme Court also
stated: “The superior court found that in early 2009
Taffe and Lehner were aware of and complaining to
First National that the unsubdivided tracts had not
been released from the 2008 deed of trust. The
failure to release the tracts meant that Taffe and
Lehner’s title to the tracts was clouded, arguably an
appreciable injury in and of itself.”
There was no proof of an “appreciable injury”
in 2010. There was no “cloud” over title (ownership)
until the foreclosure action in November 2012. Any
prior damage claims would have been speculative.
Plaintiffs provided the state Supreme Court with
caselaw indicating speculative damages do not

19
qualify as the date of accrual nor do they start the
running of the statute of limitations.
On page 12, pp. 3 the state Supreme Court
acknowledged that Petitioners had made at least one
inquiry as to whether there was any potential
wrongdoing: “Taffe and Lehner contend that the
superior court, despite determining when a
reasonable person should have begun inquiring into
the alleged fraud, never determined whether they
made such inquiries. But the court found that they
started inquiring in early 2009 whether First
National intended to execute a new deed of trust,
when they questioned why it had not been done.”
The controversy that concerned Petitioners in
2009 was resolved in September of that year by the
sale of “Tract F” without the permission of the bank.
Petitioners provided overwhelming documentation
showing that First National's account was fictional.
Plaintiffs provided the state Supreme Court
with evidence that they made six inquiries regarding
First National's intent between 2009 and 2012.
Plaintiffs argued that the statute of limitations was
tolled by each of those actions and that the fraud was

20
continuous, which would also toll limitations.
Finally, on Page 14, pp. 2, lines 9-15 the
Supreme Court incorrectly represented that “the
superior court ultimately dismissed the fraud” claims.
The lower court did not dismiss the fraud case; it relied
on the presence of credible evidence of all the elements
of fraud in order to rationalize dismissal based on
limitations. Petitioners submit that a closer look at the
Record will show that both courts were stunningly
erratic and incorrect because of systemic bias.

X.

Conclusion

Petitioners respectfully request that this Court
issue a writ of certiorari to review the rulings of the
Kenai Superior Court and the Alaska Supreme Court,
Appellate Division.
Respectfullv-submittedvon Apr-il-l.~2020

April 1. 2020
Thomas Taffe

April 1. 2020
Devony Lehn§^

^

.

XIONKMdV

\

